APPENDIX
Exhibit A, Opinion of Oklahoma Supreme Court
Exhibit B, Certificate of Service

7

mippopip
2019 OK 83
IN THE SUPREME COURT OF THE STATE OF OKLOMA
SUPREME COURT
STATE OF OKLAHOMA
VIDEO GAMING TECHNOLOGIES,
INC.,
DEC 1 7 2.019
JOHN D. HADDEN
GLSRK

Plaintiff/Appellant,
v.
ROGERS COUNTY BOARD OF TAX
ROLL CORRECTIONS, a Political
Subdivision; CATHY PINKERTON
BAKER, ROGERS COUNTY
TREASURER, in Her Official Capacity;
and SCOTT MARSH, ROGERS COUNTY
ASSESSOR, in HIS Official Capacity,

For Official Publication
No. 117,491
Recd (date)
Posted
Mailed
Dista
Publisle-k" yes

no

Defendants/Appellees.
ON APPEAL FROM THE DISTRICT COURT OF ROGERS COUNTY,
STATE OF OKLAHOMA
HONORABLE SHEILA A. CONDREN, DISTRICT JUDGE
¶ 0 Plaintiff brought claims for relief from assessment of ad
valorem taxes on electronic gaming equipment owned by Plaintiff and
leased to the Cherokee Nation through its business entity. Both parties
sought summary judgment. The district court rendered summary
judgment in Defendant's favor, finding that ad valorem taxes were not
preempted. We retained Plaintiffs appeal.
ORDER OF THE DISTRICT COURT IS REVERSED,
CAUSE REMANDED.
Elizabeth A. Price and Kurt M. Rupert, Hartzog Conger Cason & Neville, and
Kevin B. Ratliff, Ratliff Law Firm, Oklahoma City, OK for Appellant.
Matthew J. Ballard, District Attorney, Rogers County District Attorney's Office,
Claremore, OK, for Appellee.
1

EXHIBIT

OPINION
DARBY, V.C.J.,
¶1

On appeal, Video Gaming Technologies, Inc. ("VGT"),

Plaintiff/Appellant, contends that the district court improperly granted summary
judgment to Rogers County Board of Tax Roll Collections ("Board"), the Rogers
County Treasurer, and the Rogers County Assessor, Defendants/Appellees (together
"County"). The questions before this Court are whether the district court properly
denied VGT's motion for summary judgment and properly granted County's
counter-motion for summary judgment. We answer both in the negative.
I. STANDARD OF REVIEW
¶2

Summary judgment settles only questions of law, therefore, we review

de novo the grant thereof. Am. Biomedical Grp. v. Techtrol, Inc., 2016 OK 55, ¶ 2,
374 P.3d 820, 822. "Summary judgment will be affirmed only if the appellate court
determines that there is no dispute as to any material fact and that the moving party
is entitled to judgment as a matter of law." Horton v. Hamilton, 2015 OK 6, 8, 345
P.3d 357, 360; see also 12 0.S.2011, § 2056(C). Under this standard, we confine our
review to the limited, undisputed, material facts. Techtrol, 2016 OK 55, ¶ 3, 374
P.3d at 823. We do not consider County's factual allegations included in its
paperwork that County failed to designate as disputed or undisputed material facts
or support with evidentiary materials in the district court. See id.; see also Frey v.
Independence Fire and Cas. Co., 1985 OK 25, 116, 698 P.2d 17, 20
2

IL PROCEDURAL HISTORY
¶3

In December 2012, VGT filed a complaint with Board protesting the

2011 and 2012 assessment of ad valorem taxes. VGT claimed the electronic gaming
equipment it leased exclusively to Cherokee Nation (Nation) for gaming was
preempted from taxation under federal law. At that time, VGT submitted a copy of
Mashantucket Pequot Tribe v. Town of Ledyard (Mashantucket I), No.
3:06CV1212(WWE), 2012 WL 1069342 (D. Conn. Mar. 27, 2012) (finding
preemption of imposition of ad valorem tax on gaming equipment), rev 'd, 722 F.3d
457 (2d Cir. 2013). In December 2013, VGT timely filed a complaint with Board
protesting the 2013 ad valorem tax assessments for the same reason. In April 2014,
Board denied VGT's complaints by letter.
¶4

VGT timely appealed Board's decision, filing a petition for review in

Rogers County District Court. VGT sought summary judgment claiming federal
preemption of ad valorem taxes under the Indian Gaming Regulatory Act (IGRA),
25 U.S.C. §§ 2701-2721 (2018), Indian Trader Statutes, and federal case law. VGT
set forth a list of undisputed material facts which it supported with declarations' from
VGT's Assistant General Counsel and an attorney for Nation; it also attached copies
of its 2012 and 2013 complaints and Board's 2014 denial letter.

I An unswom declaration, signed under penalty of perjury, may be used in place of an affidavit.
12 0.S.2011, § 426.

3

¶5

County filed a response and counter-motion for summary judgment,

urging that ad valorem taxation of the property was not preempted or barred. County
declared that "the relevant facts in this case are not in dispute," making summary
judgment appropriate. County then set out its own statement of undisputed material
facts. Later in its counter-motion for summary judgment and response, County
argued:
VGT has not alleged or provided evidence that it actually passes off the
costs of its taxes onto the Tribe, but merely asserts a vague notion that
its lease agreements are "based upon a variety of competing economic
factors" and include costs that are "balanced to arrive at the lease
terms." This bald assertion supposedly supports VGT's contention that
the economic burden caused by the taxes would ultimately fall on the
Tribe, but VGT has advanced no evidence that this is actually the case.
Def't's Resp. to VGT's Mot. for S.J., Counter-Mot. for S.J., and Br. in Supp., filed
May 31, 2018, at 10. County, however, failed to support this assertion with any
evidence to dispute the evidence put forth by VGT. County attached a copy of
Mashantucket Pequot Tribe v. Town of Ledyard (Mashantucket II), 722 F.3d 457 (2d
Cir. Jul. 15, 2013) (reversing Mashantucket I and finding no preemption), an
affidavit from the Rogers County Assessor, copies of the complaints and denial, and
a statement of the taxes currently assessed against VGT.
6 On September 27, 2018, the district court denied VGT's motion and
sustained County's counter-motion for summary judgment. The district court found
the rationale in Mashantucket II persuasive and held that the "State of Oklahoma's
4

ad valorem tax statutes are not preempted or barred by the Indian Trader Statutes,
the Indian Gaming Regulatory Act, or pursuant to the balancing test set forth by the
United States Supreme Court in White Mountain Apache Tribe v. Bracker," 448 U.S.
136, 100 S. Ct. 2578, 65 L. Ed. 2d 665 (1980). VGT timely appealed under
Oklahoma Supreme Court Rule 1.36 and filed a motion that we retain the appeal,
which we granted. On appeal, VGT argues that the district court erred in (1) relying
on Mashantucket II to grant County's counter-motion for summary judgment and
(2) failing to grant VGT's motion for summary judgment because imposition of ad
valorem taxes is preempted by IGRA and the Bracker balancing test.
III. UNDISPUTED MATERIAL FACTS
¶7

VGT is a non-Indian Tennessee corporation authorized to do business

in Oklahoma. VGT owns and leases electronic gaming equipment to Cherokee
Nation Entertainment, LLC (CNE), a business entity of Nation. Nation is a federallyrecognized Indian tribe headquartered in Tahlequah, Oklahoma. CNE owns and
operates ten gaming facilities on behalf of Nation.
¶8

CNE and VGT negotiated and executed their initial lease agreement,

and all subsequent amendments, on tribal trust land. The lease agreements are based
on a variety of competing economic factors and include consideration of several
costs that are balanced to arrive at the lease terms. The equipment lease agreement
states that VGT supplies the gaming equipment, software, and related services to
5

CNE. The gaming equipment that VGT leases to CNE is located on tribal trust land
in Rogers County and is essential to Nation's gaming operations.
¶9

The Rogers County Assessor assesses ad valorem tax on business

personal property located in the county on the first of the year, pursuant to title 68,
section 2831 of the Oklahoma Statutes.2 In 2011, 2012, and 2013, County assessed
ad valorem taxes on the gaming equipment owned by VGT.3 County based its
assessment on the value of the property and did not take into consideration use,
possession, or specific location of the property.
1110 Tax revenue from ad valorem assessments, like those imposed on
VGT's gaming equipment, help fund the operation of Rogers County government,
schools, law enforcement, health services, roads, and other government services
within Rogers County. The economic burden caused by the assessment of ad
valorem taxes, however, would ultimately fall on Nation because it would impact

A. All property, both real and personal, having an actual, constructive or taxable
situs in this state, shall, except as hereinafter provided, be listed and assessed and
taxable in the county, school districts, and municipal subdivision thereof, where
actually located on the first day of January of each year . . . .

2

68 0.S.2011, § 2831(A).
was assessed and paid ad valorem taxes on the gaming equipment from 2005-2010. The
Rogers County Assessor has continued to assess ad valorem tax on VGT's gaming equipment
since 2013 and VGT has continued to file complaints for all further ad valorem taxes. Board has
not taken any action on the further complaints while awaiting the outcome of this matter.

3 VGT

6

the overall costs of providing the gaming machines to Nation and therefore the price
for which VGT would agree to lease them.
IV. ANALYSIS
¶ 11 VGT argues that taxation of its gaming equipment is preempted by
IGRA and Bracker because the property is located on tribal trust land under a lease
to Nation for use in its gaming operations.
A. Federal Preemption of Taxation of Non-Indians on Indian Land
¶ 12 The location of property on tribal trust land is not aper se bar to taxation
because the legal incidence of the ad valorem tax falls on the non-Indian lessor, not
on Nation. Okla. Tax Comen v. Chickasaw Nation, 515 U.S. 450, 453, 459, 115 S.
Ct. 2214, 132 L. Ed. 2d 400 (1995); State ex rel. Edmondson v. Native Wholesale
Supply, 2010 OK 58, ¶ 39, 237 P.3d 199, 212-213. When a state or county seeks to
impose a nondiscriminatory tax on non-Indians on tribal land, there is no rigid
preemption rule, rather we must apply a flexible analysis to determine if taxation is
proper. See Bracker, 448 U.S. 136; see also Ramah Navajo Sch. Bd. v. Bureau of
Revenue ofN.M, 458 U.S. 832, 102 S. Ct. 3394, 73 L. Ed. 2d 1174 (1982); see also
Cotton Petroleum Corp. v. New Mexico, 490 U.S. 163, 109 S. Ct. 1698, 104 L. Ed.
2d 209 (1989). Courts must perform a "particularized examination of the relevant
state, federal, and tribal interests" which is not controlled by standards of preemption

7

from other areas of law. Ramah Navajo School Bd., 458 U.S. at 838; see also
Bracker, 448 U.S. at 142,144-45.
¶ 13 In examining federal treaties and statutes, we must look to
congressional intent to preempt state taxation of non-Indians on tribal land, while
considering the broad underlying policies and history of tribal sovereignty as a
"backdrop." Cotton Petroleum, 490 U.S. at 176; see also Bracker, 448 U.S. at 142,
144-45. Preemption is not limited to cases in which Congress has expressly
preempted the state tax. Cotton Petroleum, 490 U.S. at 176-77. The county seeking
to impose a tax on non-Indians on tribal land must be able to identify regulatory
functions or services the county performs to justify the assessment—interest in
raising revenues is not enough. Bracker, 448 U.S. at 148-49,150. Courts must follow
the guiding principle to construe "federal statutes and regulations relating to tribes
and tribal activities" generously in order to comport with "traditional notions of
sovereignty and with the federal policy of encouraging tribal independence." Ramah
Navajo Sch. Bd., 458 U.S. at 846; Bracker, 448 U.S. at 143-44.
¶ 14 In Bracker, the U.S. Supreme Court looked to the comprehensive and
pervasive nature of the federal regulation of harvesting timber, the number of
policies underlying the federal scheme which were threatened by state regulation,
the tribe's sovereignty over their land, the fact that it was undisputed that the
economic burden would ultimately fall on the tribe, and the state's inability to

identify any regulatory function or service the state performed that would justify the
taxes except a generalized interest in raising revenue. Id. at 145-51. Ultimately, the
Court found preemption of state motor carrier license and use fuel taxes on a nonIndian logging company's activities on Indian land. Id. at 151.
¶ 15 Two years later, the U.S. Supreme Court applied that analysis before
finding preemption of a state gross-receipts tax imposed on a non-Indian contracting
firm constructing school facilities on tribal land. Ramah Navajo Sch. Bd., 458 U.S.
832. The Court determined federal regulations regarding construction of Indian
schools were both comprehensive and pervasive. Id. at 839-42. The Court noted that
while the burden nominally fell on the non-Indian contractor, it impeded the clearly
expressed federal interests by depleting the funds available for construction. Id. at
842. The Court again found the state's ultimate justification was a desire to increase
revenue, without showing a specific, legitimate regulatory interest to justify the
imposition of the tax. Id. at 843-845.
¶ 16 In 1989, the U.S. Supreme Court found a non-Indian lessee oil and gas
company was subject to severance taxes from both the tribe and the state for minerals
extracted from their leases on Indian land. Cotton Petroleum, 490 U.S. at 168-69.
The Court considered the history of the State's ability to tax non-Indian lessee's onreservation oil production as well as one of the purposes of the act being to provide
tribes with "badly needed revenue, but [found] no evidence . . . that Congress
9

intended to remove all barriers to profit maximization." Id. at 173, 180. The Court
determined that the state also regulated the field, the state provided substantial
services to the tribe and the company in question, and there was no economic burden
on the tribe from the company's payment of taxes. Id. at 185-86.
¶ 17 The Court distinguished the case from Bracker and Ramah Navajo
School Board because the other cases "involved complete abdication or
noninvolvement of the State in the on-reservation activity." Id. at 185. The Court
determined that there is no proportionality requirement to the justification of taxes
for States compared to the services provided. Id. The Court acknowledged that the
taxes had a "marginal effect on the demand for on-reservation leases, the value to
the Tribe of those leases, and the ability of the Tribe to increase its tax rate," but
found that any impairment to the federal policies in play was too indirect and
insubstantial to support claims of preemption. Id. at 187
B. Federal IGRA Case Law
¶ 18 In 2001, the Eighth Circuit analyzed IGRA's preemption of state law
claims in a dispute between a non-Indian general contractor and non-Indian subcontractor. Casino Res. Corp. v. Harrah's Entm't, Inc., 243 F.3d 435, 439 (8th Cir.
2001). Resolution of the dispute required review of a contract terminating a gaming
management arrangement between one of the parties and a tribal entity. Id. at 438.
The Eighth Circuit noted that Inlot every contract that is merely peripherally
10

associated with tribal gaming is subject to IGRA's constraints." Id. at 439. The court
held that lilt is a stretch to say that Congress intended to preempt state law when
there is no valid management contract for a federal court to interpret, when the
Nation's broad discretion to terminate management contracts is not impeded, and
when there is no threat to the Nation's sovereign immunity or interests." Id. at 440.

I 19 In 2008, the Ninth Circuit addressed whether IGRA preempted state
sales tax on construction materials purchased by a non-Indian sub-contractor from a
non-Indian vendor and delivered to Indian land for casino construction. Barona
Band of Mission Indians v. Yee, 528 F.3d 1184, 1186 (9th Cir. 2008). The court
weighed heavily the parties' attempt to manipulate tax laws and noted that the taxed
materials "could be used for a multitude of purposes unrelated to gaming." Id. at
1191-93. The court found that "IGRA's comprehensive regulation of Indian gaming
does not occupy the field with respect to sales taxes imposed on third-party
purchases of equipment used to construct gaming facilities." Id. at 1193.
¶ 20 In 2013, the Second Circuit determined ad valorem taxation on gaming
equipment was not preempted by IGRA. Mashantucket II, 722 F.3d at 470. The court
compared the ad valorem tax on gaming equipment to Barona Band and Casino
Resource, where the generally-applicable laws were not preempted by IGRA's
occupation of the governance of the gaming field, but were merely peripherally
associated. 722 F.3d at 470. The court found that "mere ownership of slot machines
11

by the vendors does not qualify as gaming, and taxing such ownership therefore does
not interfere with the 'governance of gaming."' Id. (emphasis original).
¶ 21 In its Bracker analysis, the Mashantucket II court stated that "[n]othing
within IGRA reveals congressional intent to exempt non-Indian suppliers of gaming
equipment from generally applicable state taxes that would apply in the absence of
the legislation." 722 F.3d at 473. The court determined that "IGRA presented an
opportunity for Congress to preempt taxes exactly like this one; Congress chose to
limit the scope of IGRA's preemptive effect to the 'governance of gaming.'" Id
(quoting Gaming Corp. of Am. v. Dorsey, 88 F.3d 536, 550 (8th Cir. 1996)). The
court concluded:
We recognize that this is arguably a close case. However, the
Tribe's generalized interests in sovereignty and economic development
are not significantly impeded by the State's generally-applicable tax;
neither are the federal interests protected in IGRA. The Town has
moderate economic and administrative interests at stake, and the affront
to the State's sovereignty on one hand approximates the affront to the
Tribe's sovereignty on the other. The balance of equities here favors
the Town and State.
Mashantucket II, 722 F.3d at 476-77.
¶ 22 In 2014, the United States Supreme Court considered whether a tribe's
off-reservation gaming activities were covered under IGRA. Michigan v. Bay Mills
Indian Cmty., 572 U.S. 782, 134 S. Ct. 2024, 188 L. Ed. 2d 1071 (2014). The Court
noted that "numerous provisions of IGRA show that 'class III gaming activity'
means just what it sounds like—the stuff involved in playing class III games." Bay
12

Mills, 572 U.S. at 792. The Court noted multiple phrases in IGRA that "make perfect
sense if 'class III gaming activity' is what goes on in a casino—each roll of the dice
and spin of the wheel"—and together signify that the "gaming activity is the
gambling in the poker hall not the proceedings of the off-site administrative
authority." Id. The Court explained that two sections of IGRA describe the "power
to 'clos[e] a gaming activity' for 'substantial violation[s]' of law—e.g., to shut down
crooked blackjack tables, not the tribal regulatory body meant to oversee them." Id.
1123 Since Bay Mills, the Tenth Circuit addressed the question of jurisdiction
over tort claims arising out of IGRA. Navajo Nation v. Dailey, 896 F.3d 1196, 1200
(10th Cir. 2018), cert. denied sub nom. McNeal v. Navajo Nation, 139 S. Ct. 1600,
203 L. Ed. 2d 755 (2019). The court concluded that "Class III gaming activity relates
only to activities actually involved in the playing of the game, and not activities
occurring in proximity to, but not inextricably intertwined with, the betting of chips,
the folding of a hand, or suchlike." 896 F.3d at 1207. The court found that actions
arising in tort are not "directly related to, and necessary for, the licensing and
regulation of [gaming] activity." Id. at 1207, 1209. The court clarified that the
licensing or regulation of gaming activity "does not relate to claims arising out of

13

occurrences that happen in proximity to—but not as a result of—the hypothetical
card being dealt or chip being bet." Id. at 1209 (citation omitted).4
¶ 24 Recently, the Eighth Circuit again addressed IGRA in two cases issued
the same day. Flandreau Santee Sioux Tribe v. Noem, 938 F.3d 928 (8th Cir. 2019);
Flandreau Santee Sioux Tribe v. Haeder, 938 F.3d 941(8th Cir. 2019). The court
determined in Noem that IGRA preempted the state's imposition of a use tax on nonIndian purchases of amenities at a casino. Noem, 938 F.3d at 937. In Haeder, the
court determined that IGRA did not preempt an excise tax .on gross receipts of a nonIndian contractor for services performed in renovating and expanding a casino.
Haeder, 938 F.3d at 942, 947.
¶ 25 The Eighth Circuit stated that the phrase "[d]irectly related to the
operation of gaming activity" is narrower than "directly related to the operation of
the Casino." Noem, 938 F.3d at 935. The court thus determined that sale of amenities

In a footnote, the court noted that someone could potentially incur an injury from the gaming
activity itself. Navajo Nation v. Dailey, 896 F.3d 1196, 1210 n.7 (10th Cir. 2018).

4

Consider, for example, a casino patron at a roulette table: during the course of the
game, an errant ball flies and hits the patron in the eye, causing damage to the
patron. Or, in a different situation, a patron is playing on a dysfunctional slot
machine that electrocutes the patron, again resulting in some harm. In both of those
instances, it is at least arguable that the patron's injuries resulted directly from
gaming activity, within the meaning of Bay Mills, i.e., "what goes on in a casino—
each roll of the dice and spin of a wheel."
Id (quoting Michigan v. Bay Mills Indian Cmty., 572 U.S. 782, 792, 134 S. Ct. 2024, 188 L. Ed.
2d 1071 (2014).

14

is not "directly related to the operation of gaming activities" in order to be expressly
preempted. Id. But the court found that while the amenities are not directly related
to the operation of gaming activities, they do contribute significantly to the economic
success of the tribe's class III gaming operation. Id. at 936. The court noted that the
state's taxation of amenities would raise the cost—potentially reducing tribal
revenues and detrimentally impacting IGRA's policies. Id. In affirming the
preemption of state use tax on non-Indian purchases of amenities at the casino, the
court found:
[t]he State's interest in raising revenues to provide government services
. . . does not outweigh the federal and tribal interests in Class III gaming
reflected in IGRA and the history of tribal independence in gaming
recognized in Cabazon. As in Bracker, "this is not a case in which the
State seeks to assess taxes in return for governmental functions it
performs for those on whom the taxes fall."
Id. at 937.
¶ 26 In Haeder, the court considered a provision in IGRA requiring National
Indian Gaming Commission (NIGC) approval of a tribal ordinance stating that
casino construction would adequately protect the environment, public health, and
safety—but noted that the NIGC does not regulate construction activity or prescribe
what adequate protection requires. Haeder, 938 F.3d at 945. The court concluded
that the provision did not preempt the state contractor excise tax, "a tax which does
not regulate or interfere with the Tribe's design and completion of the construction
project, or its conduct of Class III gaming." Id. The court further noted that, unlike
15

the ongoing casino amenities tax in Noem, the contractor excise tax is a one-time tax
which "hardly implicates the relevant federal and tribal interests." Haeder, 938 F.3d
at 946. The court also found that because the tax did not regulate casino construction
or gaming activities, there were no implications to the federal and tribal interests in
IGRA. Id. Regarding the state's interests, the court noted that the relevant services
provided included those available to the contractor and the members of the tribe on
and off-reservation. Id. at 947.
C. Bracker Analysis of Ad Valorem Tax on Gaming Equipment
27 In the present case, we must (1) look to the comprehensiveness of the
federal regulations in place, in light of the broad underlying policies and notions of
sovereignty in the area; (2) consider the number of policies underlying the federal
scheme which are threatened; and (3) determine if the state is able to justify the tax
other than as a generalized interest in raising revenue. See Bracker, 448 U.S. at 142,
144-45.
.I) Comprehensive Legislation
¶ 28 IGRA was "intended to expressly preempt the field in the governance
of gaming activities on Indian lands." S.Rep.100-446 (1988), reprinted in 1988
U.S.C.C.A.N. 3071, 3076. In creating IGRA, Congress recognized that the extension
of State jurisdiction to Indian lands has traditionally been inimical to Indian interests
and attempted to balance the need for sound enforcement of gaming laws and
I

16

regulations with the strong federal interest in preserving sovereign rights of tribal
governments to regulate activities and enforce laws on Indian lands. Id. at 3075.
Congress found:
numerous Indian tribes have become engaged in or have licensed
gaming activities on Indian lands as a means of generating tribal
governmental revenue;
Federal courts have held that section 81 of this title requires
Secretarial review of management contracts dealing with Indian
gaming, but does not provide standards for approval of such contracts;
existing Federal law does not provide clear standards or regulations
for the conduct of gaming on Indian lands;
a principal goal of Federal Indian policy is to promote tribal
economic development, tribal self-sufficiency, and strong tribal
government; and
Indian tribes have the exclusive right to regulate gaming activity on
Indian lands if the gaming activity is not specifically prohibited by
Federal law and is conducted within a State which does not, as a matter
of criminal law and public policy, prohibit such gaming activity.
25 U.S.C. § 2701.
¶ 29 Congress adopted IGRA in 1988 to provide for the operation and
regulation of gaming by Indian tribes. Seminole Tribe of Fla. v. Florida, 517 U.S.
44, 48, 116 S. Ct. 1114, 134 L. Ed. 2d 252 (1996). IGRA divides gaming on Indian
lands into three classes, and it provides a different regulatory scheme for each one.
Id. Class II gaming is bingo, electronic or otherwise, and card games that are either
explicitly authorized by the State or not explicitly prohibited and are played
17

elsewhere in the State. 25 U.S.C. § 2703(7). Class III gaming is heavily regulated
and is defined as all gaming which is not included in class I or II; it includes slot
machines, electronic games of chance, casino games, banking card games—such as
baccarat, chemin de fer, or blackjack—and others. Seminole Tribe, 517 U.S. at 48;
25 U.S.C. § 2703(7)(B),(8).
30 Congress declared IGRA's purpose included providing regulation from
corrupting influences, ensuring the tribe is the primary beneficiary of the operation,
and assuring that gaming is conducted fairly and honestly, by both operator and
players. 25 U.S.C. § 2702.5 In accordance with that, IGRA provided comprehensive
guidance on gaming. IGRA mandates that tribes may only conduct Class III gaming
when the tribe adopts an ordinance or resolution that satisfies certain statutorily

5

IGRA's purpose is:

to provide a statutory basis for the operation of gaming by Indian tribes as a
means of promoting tribal economic development, self-sufficiency, and strong
tribal governments;
to provide a statutory basis for the regulation of gaming by an Indian tribe
adequate to shield it from organized crime and other corrupting influences, to
ensure that the Indian tribe is the primary beneficiary of the gaming operation, and
to assure that gaming is conducted fairly and honestly by both the operator and
players; and
to declare that the establishment of independent Federal regulatory authority for
gaming on Indian lands, the establishment of Federal standards for gaming on
Indian lands, and the establishment of a National Indian Gaming Commission are
necessary to meet congressional concerns regarding gaming and to protect such
gaming as a means of generating tribal revenue.
25 U.S.C. § 2702 (2018).

18

prescribed requirements and it is conducted in accordance with a negotiated TribalState compact. Seminole Tribe, 517 U.S. at 49; 25 U.S.C. § 2710(d)(1).6 The State
is able to assess necessary amounts under the compact in order to defray associated
regulation costs for Class III gaming. Id. § 2710(d)(3). Although Nation's compact
with the State is not part of the record, the model state compact provides extensive
regulation requiring inspection of gaming equipment to ensure the gaming is
conducted fairly and honestly. 3A 0.S.2011, § 281 Part 4(B), 5(C),(M), 8(A). It also
mandates that companies that lease over twenty-five thousand dollars a year of
equipment to a tribe must be licensed by the tribal compliance agency, and requires
payment of annual assessments for oversight of the gaming equipment. Id Part
10(B)(1), 11(B).
¶ 31 IGRA also established the NIGC and gave it power to close gaming
activities; adopt regulations for, levy, and collect civil fines; establish the rate of
fees; approve tribal ordinances or resolutions regulating class II and III gaming; and
approve management contracts. 25 U.S.C. §§ 2703-06, 2710-11, 2713. The NIGC
also has power to establish fees to be paid by each "gaming operation that conducts

Any Indian tribe having jurisdiction over the Indian lands upon which a class III
gaming activity is being conducted, or is to be conducted, shall request the State in
which such lands are located to enter into negotiations for the purpose of entering
into a Tribal-State compact governing the conduct of gaming activities.

6

25 U.S.C. § 2710 (2018) (emphasis added).

19

. . . a class III gaming activity that is regulated by this chapter." Id. § 2717(a). IGRA
allows a tribe to adopt a resolution and submit it to the Commission to "authorize
any person or entity to engage in, a class III gaming activity on Indian lands of the
Indian tribe." Id. § 2710(d)(2)(A). IGRA further requires independent audits for
contracts related to Class II or III gaming for supplies, services, or concessions in
contracted amounts in excess of $25,000 annually. Id. § 2710(b)(2)(D),(d)(1)(A)(ii).
i) Gaming Equipment versus Gaming Activity
32 We find IGRA's regulations governing gaming are comprehensive and
pervasive. Before we go further in the analysis, however, we must first address
whether for purposes of IGRA there is a difference in owning gaining equipment
used exclusively for tribal gaming versus engaging in gaming activity. IGRA itself
does not expressly distinguish the game from the equipment on which it is played.
Nor has the U.S. Supreme Court. While Bay Mills focused on the action rather than
the equipment—describing gaming as the "act of throwing the dice"—it is clear that
regulation of gaming equipment is encompassed under IGRA in order to prevent
corruption. If regulation of traditional gaming equipment, such as preventing
crooked blackjack tables, is necessary—regulation of electronic gaming equipment,
which has much greater potential for abuse, seems that much more important.
33

IGRA was clearly intended to provide oversight of gaming equipment

to prevent corruption. But, the Second Circuit determined that gaming equipment is
20

somehow peripheral or tangential to gaming and thus distinguished gaming
equipment from gaming in order to find taxation of its ownership was not governed
by IGRA' s express preemption of the field of "governance of gaming." The Second
Circuit also confused the Bracker analysis when it stated that "[w]hile IGRA seeks
to limit criminal activity at the casinos, nothing in Connecticut's tax makes it likely
that Michael Corleone will arrive to take over the Tribe's operations." Mashantucket
II , 722 F.3d at 473. The fact that the specific tax in question does not infringe on a

purpose of IGRA, does not remove the applicable stated purpose of IGRA or its
importance.
1134 Unlike Barona Band, the gaming equipment in this location cannot be
used for anything but gaming. Barona Band, 528 F.3d at 1191-93. The ad valorem
tax would not apply to this gaming equipment in the absence of IGRA, because the
gaming equipment is only located in Rogers County due to its use in Indian gaming
activities. And prior to IGRA, mere possession of the gaming equipment on tribal
trust land would have been illegal. See 15 U.S.C. § 1175(a) (2018).
1135 Mashantucket II held that "this is arguably a close case," 722 F.3d at
476, however, we disagree. Here, the ad valorem tax is assessed against the owner
of property located in the county. Focusing only on the ownership of the property
separate from the property itself—especially in this case where the property would
not be located in the county but for its possession by Nation for its exclusive leased
21

use in Indian gaming—would be incongruous with Bracker and its progeny. While
ownership of gaming equipment does not automatically subject it to IGRA, when
the gaming equipment is used exclusively in a tribal gaming operation, such as with
Nation, we find it is inextricably intertwined with IGRA gaming activities such that
it is absolutely directly related to and necessary for the licensing and regulation of
gaming activity. See Dalley, 896 F.3d at 1207.
¶ 36 Mashantucket II also ignored the U.S. Supreme Court's guidance that
courts should err toward Indians on questions of preemption. Ramah Navajo Sch.
Bd., 458 U.S. at 846; Bracker, 448 U.S. at 143-44. Unlike the situations in Casino
Resource and Barona Band, gaming equipment is not tangential to gaming. Rather,
it is a sine qua non of gaming. Due to the United States Supreme Court's clear
comments about the nature of gaming activities, and the Court's clear guidance to
construe federal statutes relating to tribal activity generously, we find Mashantucket
II unpersuasive.
2) Federal Policies Threatened by Ad Valorem Taxation of Gaming Equipment
¶ 37 It is an undisputed fact that the burden of the ad valorem taxes will
ultimately fall on Nation. Due to the success of Nation's gaming enterprise, the
passed on cost will not threaten the purpose of Nation being the primary beneficiary
of the gaming operation. Title 68, section 3104 of the Oklahoma statutes, however,
allows County to seize property when ad valorem taxes are not paid. 68 0.S.2011,
22

§ 3104. Thus, County's remedy for collection of delinquent taxes would directly
affect the tribe, impact its gaming operation, and severely threaten the policies
behind IGRA—including Nation's sovereignty over its land. See Wyandotte Nation
v. Sebelius, 443 F.3d 1247 (10th Cir. 2006) (tribal sovereignty outweighs a state's
interest in enforcing its laws to the extent of intruding onto tribal land and seizing
casino equipment, files, and proceeds).
3) County's Justification for Taxation
¶ 38 County argues that ad valorem taxation is justified to ensure integrity
and uniform application of tax law. County also justifies the tax by claiming, without
additional supporting evidence, that the money is vital to them. County further states
that the disputed taxes fund services it provides to the county at large.
¶ 39 County does not regulate gaming or gaming equipment in any way.
Unlike Cotton Petroleum, County has not shown it provides any regulatory functions
or services to VGT, the out-of-state company, to justify its taxation of equipment
which is only located in Rogers County for use in Nation's gaming enterprise. See
Cotton Petroleum, 490 U.S. at 185-186; see also Bracker, 448 U.S. at 148-49. Like
Ramah Navajo School Board, it appears that County's interest is primarily raising
revenue without providing specific regulatory functions or services to justify it.
Ramah Navajo Sch. Bd., 458 U.S. at 843-45. The U.S. Supreme Court has said that
desire for increased revenue is not enough, instead basing justification on what the
23

state or county provides to the entity in exchange for taxation. Bracker, 448 U.S. at
150. County has not shown any nexus between the services it provides through ad
valorem taxation and services that VGT receives on-or-off tribal land. County's
provision of services to other members of the county does not justify imposition of
the tax which burdens the federal interests in IGRA. See Ramah Navajo Sch. Bd.,
458 U.S. at 844. Like Bracker, "this is not a case in which the [County] seeks to
assess taxes in return for governmental functions it performs for those on whom the
taxes fall." Bracker, 448 U.S. at 150.
¶ 40 County's argument regarding uniform application of the law also fails;
Oklahoma also already has use exemptions for ad valorem taxation that require
County to consider property use in certain circumstances. Okla. Const. art. 10, §
68 0.S.2011, §§ 2887, 2889; State ex rel. Cartwright v. Dunbar, 1980 OK 15, ¶10,
618 P.2d 900, 904-905 (use is the determinative factor for questions of exemption
from ad valorem taxes for religious or charitable question use) (quoting State ex rel.
City of Tulsa v. Mayes Cty. Treasurer, 1935 OK 1027, ¶ 36, 51 P.2d 266); Okla.
Indus. Auth. v. Barnes, 1988 OK 98, ¶ 16, 769 P.2d 115, 120. Further, there are other
statutory considerations of use for determination of fair market value for taxation.
See 68 0.S.2011, § 2817. Requiring County to consider use in this situation is not
an unfair burden on its enforcement of tax laws.

24

¶ 41 Gaming equipment is not peripheral to gaming. Based off the U.S.
Supreme Court's interpretation of gaming in IGRA and its further admonishment to
interpret federal statutes regarding tribes generously, we find that gaming equipment
is a sine qua non for gaming and thus under IGRA. The comprehensive regulations
of IGRA occupy the field with respect to ad valorem taxes imposed on gaming
equipment used exclusively in tribal gaming. The state remedy for non-payment also
acts as an obstacle to the accomplishment and execution of the full purpose and
objectives of Congress. See Gade v. Nat'l Solid Wastes Mgmt. Ass'n, 505 U.S. 88,
98, 112 S. Ct. 2374, 120 L. Ed. 2d 73 (1992). Due to the comprehensive and
pervasive nature of IGRA, the number of federal policies threatened, Nation's
sovereignty, and County's lack of justification other than as a generalized interest in
raising revenue, we find that taxation of gaming equipment used exclusively in tribal
gaming is preempted.
V. CONCLUSION
¶ 42 Summary judgment is only affirmed if there is no dispute as to any
material fact and the party is entitled to judgment as a matter of law. The district
court erred in relying on Mashantucket II and not considering the more recent
guidance of the U.S. Supreme Court in Bay Mills. Based on this erroneous
conclusion of law, we find summary judgment against VGT was improper.

25

If 43 Due to the comprehensive nature of IGRA' s regulations on gaming, the
federal policies which would be threatened, and County's failure to justify the tax
other than as a generalized interest in raising revenue, we find that ad valorem
taxation of gaming equipment here is preempted. We reverse the order of summary
judgment and we remand the matter to the district court to enter an appropriate order
of summary judgment for VGT.
ORDER OF THE DISTRICT COURT IS REVERSED,
CAUSE REMANDED.
Gurich, C.J., Darby, V.C.J., Kauger, Winchester, Edmondson, Colbert and Combs,
JJ. — concur
Kane, J. — not voting

26

